                 Voucher Audit of the Integration Support
                     Contract – TIRNO-92-C-00014

                                 September 2005

                       Reference Number: 2005-10-162




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                        September 27, 2005



      MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES



      FROM:                  Pamela J. Gardiner
                             Deputy Inspector General for Audit

      SUBJECT:               Final Audit Report - Voucher Audit of the Integration Support
                             Contract – TIRNO-92-C-00014 (Audit # 200510003)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Integration Support Contract – TIRNO-92-C-00014. The overall objective of this review
      was to determine whether selected vouchers submitted and paid under contract
      TIRNO-92-C-00014 were appropriate and in accordance with the contract’s terms and
      conditions.
      Contract expenditures represent a significant outlay of IRS funds. The Treasury
      Inspector General for Tax Administration (TIGTA) has made a commitment to perform
      audits of these expenditures. We initiated this audit to determine whether the vouchers
      submitted by the contractor and paid by the IRS were accurate, supported, and
      allowable.
      Our review resulted in the identification of questionable travel charges of $1,756.18,
      which consisted of unsupported, unreasonable, and inaccurately recorded charges.
      Additionally, we identified questionable or inadequately supported award fees of
      approximately $2.4 million, which consisted of incorrect scoring calculations, ratings not
      supported by award fee narratives, and contract award fee modifications not supported
      by corresponding documentation.
      As part of this audit, we also examined contract correspondence files and interviewed
      the Contracting Officer, the Contracting Officer’s Technical Representative, and the
      Government Task Managers to determine whether there was an acceptable existence
      of deliverables. Based on these limited auditing procedures, nothing came to our
      attention that would lead us to believe there were significant problems with any of the
      deliverables associated with our tests except for the Custodial Accounting Project
                                                        2

(CAP).1 After expending approximately $135 million, the CAP was cancelled in
January 2005. Therefore, there was no system deliverable. Nonetheless, the IRS
believed some benefit had been derived from this effort. The IRS reported in its
April 27, 2005, systems project approval request to the Office of Management and
Budget that the CAP alternative will reduce costs by leveraging the CAP lessons
learned and reallocating CAP assets. The TIGTA, in an independent review,2
concluded that while there may be some residual benefit from the CAP work, a
significant portion of the $135 million spent on this cancelled project will result in
unrecoverable costs.
We recommended the Director, Procurement, ensure the appropriate Contracting
Officer reviews the identified questionable charges of $1,756.18 and initiates any
recovery actions deemed warranted. We also recommended the Director,
Procurement, initiate an independent review of all award fee amounts associated with
this contract to ensure they are accurate, supported, and reasonable.
Management’s Response: IRS management agreed with our recommendations but did
not concur, in total, with the identified benefits related to the questionable or
inadequately supported award fees. Concerning the first recommendation, the
contractor agreed to reimburse the IRS for travel costs in the amount of $1,756.18. For
the second recommendation, the Director, Procurement, will initiate an independent
review of all award fee amounts associated with this contract and ensure they are
appropriately documented. Should any discrepancies be found, appropriate action will
be taken to correct them. Until the IRS’ independent review is completed, we believe
the ultimate allowability and appropriateness of the award fee amounts will not be
known. Therefore, we continue to maintain our position that the $2.4 million identified
during the audit represents questionable costs. Management’s complete response to
the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have any questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




1
  The CAP, as part of the IRS’ business systems modernization, was to implement a single, integrated data
repository of taxpayer account information, integrated with the general ledger and accessible for management
analysis and reporting.
2
  Annual Assessment of the Business Systems Modernization Program (Reference Number 2005-20-102, dated
August 2005).
                            Voucher Audit of the Integration Support Contract
                                           TIRNO-92-C-00014




                                                 Table of Contents


Background ............................................................................................... Page 1
Questionable Contract Charges and Voucher Verification
Process ..................................................................................................... Page 2
         Recommendation 1: .......................................................................Page 5

Questionable or Inadequately Supported Award Fees .............................. Page 5
         Recommendation 2: .......................................................................Page 8

Nondelivery of the Custodial Accounting Project....................................... Page 8
Appendix I – Detailed Objective, Scope, and Methodology....................... Page 11
Appendix II – Major Contributors to This Report ....................................... Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Outcome Measures............................................................ Page 15
Appendix V – Management’s Response to the Draft Report ..................... Page 17
             Voucher Audit of the Integration Support Contract
                            TIRNO-92-C-00014

                           In December 1991, the Internal Revenue Service (IRS)
Background
                           awarded contract number TIRNO-92-C-00014, a cost-plus
                           award fee contract for systems automation integration
                           support services. The objective of this contract was to assist
                           the IRS with the implementation of the Tax Systems
                           Modernization program.1
                           The contract was awarded for 1 base year through
                           September 30, 1992, with 11 option years that would extend
                           the contract through September 30, 2003. The IRS
                           exercised all its options under the contract and extended the
                           contract an additional 2 option years. The contract expired
                           on March 31, 2005. According to the IRS Request Tracking
                           System,2 as of October 4, 2004, the IRS had awarded
                           approximately $371 million on the contract and had
                           approved approximately $295 million for payment since the
                           beginning of Fiscal Year 1998.3 The Contracting Officer
                           (CO) stated in October 2004 that the contractor had received
                           approximately $604 million since the inception of the
                           contract; approximately $34 million was in award fees.
                           Because contract expenditures represent a significant outlay
                           of IRS funds, the Treasury Inspector General for Tax
                           Administration (TIGTA) made a commitment to perform
                           audits of these expenditures. This audit was designed to
                           determine whether amounts paid by the IRS under this
                           contract were accurate, supported, and allowable through a
                           review of contractor vouchers and supporting
                           documentation.
                           This audit was performed at the Office of Procurement in
                           the Office of Agency-Wide Shared Services in
                           Oxon Hill, Maryland, during the period October 2004
                           through April 2005. Opinions expressed in this report

                           1
                             The IRS modernization program has changed names throughout the
                           life of the contract. The program is currently referred to as the Business
                           Systems Modernization.
                           2
                             The Request Tracking System allows IRS personnel to prepare,
                           approve, fund, and track requests for the delivery of goods and services.
                           The System also allows for electronic acceptance of items delivered and
                           provides an electronic interface with the Integrated Financial System
                           (the IRS’ administrative financial accounting system) for payment
                           processing.
                           3
                             The Request Tracking System only provides information as of
                           Fiscal Year 1998 when the system was implemented.
                                                                                             Page 1
                    Voucher Audit of the Integration Support Contract
                                   TIRNO-92-C-00014

                                  pertain only to the vouchers included in our random and
                                  judgmental samples.
                                  The audit was conducted in accordance with Government
                                  Auditing Standards. Detailed information on our audit
                                  objective, scope, and methodology is presented in
                                  Appendix I. Major contributors to the report are listed in
                                  Appendix II.
                                  We examined supporting documentation obtained from the
Questionable Contract Charges
                                  IRS Office of Procurement, as well as documentation
and Voucher Verification
                                  received directly from the contractor, for a sample of
Process
                                  10 vouchers. The vouchers were selected using a
                                  combination of random and judgmental sampling methods
                                  (see Appendix I for details). The 10 vouchers had
                                  processing dates from August 2002 to August 2004 and
                                  involved approximately $40 million in IRS payments.
                                  The primary expenses claimed by the contractor were
                                  employee compensation, subcontractor costs, indirect costs
                                  (e.g., overhead, and general and administrative expenses),
                                  and to a lesser extent, other direct costs, such as travel,
                                  facility expense, and communications.
                                  Questionable contract charges
                                  Based on our audit tests, we identified questionable charges
                                  of $1,756.18 as shown in Table 1. We provided details of
                                  these charges to the contractor and the IRS.
                                           Table 1: Schedule of Questionable Charges
                                               Questioned Activity                Questionable
                                                                                   Charges
                                      Unsupported Travel Charges                      $1,251.83
                                      Unreasonable Travel Charges                       $452.93
                                      Inaccurately Recorded Travel Charges               $51.42
                                      Total                                           $1,756.18
                                      Source: TIGTA analysis of 10 vouchers submitted to the IRS.

                                  All the questionable charges related to travel expenses. The
                                  majority of these charges were questioned because there
                                  were no receipts provided to support lodging expenses. The
                                  contractor explained that their policy does not require
                                  lodging receipts. Reimbursement is made at the per diem
                                                                                              Page 2
Voucher Audit of the Integration Support Contract
               TIRNO-92-C-00014

              rate and not the actual rate. The Federal Travel Regulations
              require a lodging receipt be provided and that
              reimbursement is based on the actual lodging cost not to
              exceed the per diem rate.
              The Federal Acquisition Regulation (FAR)4 stipulates a
              contractor is responsible for accounting for costs
              appropriately and for maintaining records, including
              supporting documentation, adequate to demonstrate that
              costs claimed have been incurred. The FAR also provides
              that costs shall be allowed to the extent they are reasonable,
              allocable, and allowable under the FAR.
              Voucher verification process
              Contracts may be entered into and signed on behalf of the
              Federal Government only by COs. The COs have the
              authority to administer or terminate contracts and make
              related determinations and findings. The COs are
              responsible for ensuring performance of all necessary
              actions for effective contracting, ensuring compliance with
              the terms of the contract, and safeguarding the interests of
              the United States in its contractual relationships.
              The requesting program office nominates a Contracting
              Officer’s Technical Representative (COTR), who is the
              CO’s technical expert and representative in the
              administration of a contract or task order. Usually, the CO
              will appoint the COTR by issuing a signed letter of
              appointment tailored to meet the needs of each contract.
              The CO and the COTR are required to jointly review all
              appointed duties.
              Prior to April 28, 2004, the Department of the Treasury’s
              Contracting Officer’s Technical Representatives Handbook
              was the primary guidance for the COTRs.5 Part IV of the
              Handbook states, in part, the COTRs are responsible for
              reviewing and approving invoices and vouchers on
              contracts. It also states the COTRs will receive instructions
              regarding involvement in the review and approval of

              4
               48 C.F.R. pt. 1-53 (2002).
              5
               Department of the Treasury Acquisition Circular No. 02-01, dated
              April 28, 2004, deleted references to the COTR Handbook. The
              Circular also stated the Department of the Treasury would no longer
              maintain the Handbook.
                                                                             Page 3
Voucher Audit of the Integration Support Contract
               TIRNO-92-C-00014

              invoices and vouchers from the CO. Attachment E of the
              Handbook also offers as a sample responsibility that the
              COTRs are responsible for reviewing and signing off on the
              invoices to attest to their accuracy. Six of the 10 vouchers
              we reviewed during this audit were subject to this guidance.
              Subsequent to April 28, 2004, the IRS replaced the
              Handbook guidance, in part, with a reference to the Office
              of Federal Procurement Policy’s A Guide to Best Practices
              for Contract Administration. The Guide offers, as a
              practical technique, that COTRs reviewing vouchers under
              cost-reimbursement contracts should review, among other
              things, contractor time cards to help assess the
              reasonableness of direct labor costs. The Guide also
              contains directions to review major cost categories such as
              subcontractor charges to again determine the reasonableness
              of the claimed costs.
              The COTR advised us that he or she relies on the
              Government Task Managers (GTM) to review the vouchers
              for accuracy. The GTMs indicated they were involved in
              the day-to-day oversight of the work done by the contractor.
              Further, the GTMs we interviewed generally reviewed the
              vouchers to determine the reasonableness of hours worked
              and travel expenses claimed.
              We did not identify any type of verification performed by
              the GTMs of actual hours worked by direct means, such as a
              review of contractor-provided payroll or related payment
              records, or travel receipts. We verified these charges were
              accurate and supported on the vouchers we reviewed, based
              on the contractor’s description of its billing methodology.
              We did not identify a significant amount of questionable
              charges on the vouchers we reviewed, notwithstanding the
              incomplete voucher verification process described above.
              We will continue to include a review of the IRS’ voucher
              verification process in future contract voucher audits and, if
              warranted, recommend improvements to the process.




                                                                      Page 4
                    Voucher Audit of the Integration Support Contract
                                   TIRNO-92-C-00014

                                  Recommendation

                                  1. The Director, Procurement, should ensure the
                                     appropriate CO reviews the identified questionable
                                     charges of $1,756.18 and initiates any recovery actions
                                     deemed warranted.
                                  Management’s Response: The contractor has agreed to
                                  reimburse the IRS for travel costs in the amount of
                                  $1,756.18.
                                  We interviewed the CO, COTR, GTMs, and Fee
Questionable or Inadequately
                                  Determining Official (FDO) to gain an understanding of the
Supported Award Fees
                                  process used to arrive at the amount of award fees paid to
                                  the contractor. We also reviewed documentation in support
                                  of the award fees paid to the contractor. We identified
                                  several issues pertaining to the process and associated
                                  documentation.
                                  According to the contract’s award fee plan, the contractor is
                                  evaluated twice a year to determine the amount of award
                                  fees to be paid. Written narratives are prepared using four
                                  specified factors: quality of work, program management,
                                  timeliness of delivery, and internal management. Numerical
                                  rating scores are then assigned to each factor. The
                                  contractor must score higher than 59 to receive any award
                                  fees.
                                  Because several project offices use this contract, the GTM
                                  for each project prepares the written narrative and assigns
                                  the numerical scores. The narratives and scores are
                                  submitted to the COTR. The COTR combines the
                                  narratives into one and enters the scores into a schedule that
                                  calculates an overall rating. This overall rating is entered
                                  into another schedule that calculates the award fees. The
                                  award fees are based on the number of actual hours worked.
                                  The COTR then submits the narrative and proposed award
                                  fees to the CO for approval and then to the FDO for final
                                  review and approval. A contract modification is issued to
                                  establish the award fees so the contractor may submit an
                                  invoice for it.
                                  Incorrect scoring calculations
                                  We identified an instance where the actual scores were not
                                  used in the calculation of the overall rating. On 1 of the
                                                                                         Page 5
Voucher Audit of the Integration Support Contract
               TIRNO-92-C-00014

              projects, the contractor was given a score of 59 for 2 of the
              4 evaluation factors and a score of 69 for the other 2 factors.
              When the schedule was completed to calculate the overall
              rating, an average score of 64 was used. Neither the CO nor
              the COTR knew why the 64 was used; both explained that
              the 4 individual scores should have been used.
              Because of the way the award fees are calculated, by using a
              score of anything higher than zero, the contractor will still
              get some award fees for that evaluation factor. Since scores
              of 59 or below should not receive any award fees, we
              believe the scores of 59 should be replaced with 0s. We
              recalculated the award fees for this period without
              averaging, instead using the individual scores of 69, 69, 0,
              and 0. The overall rating is lower, resulting in
              approximately $77,000 that we believe should not have been
              paid to the contractor as award fees.
              Ratings not supported by narratives
              Additionally, we noted an instance where the award fee
              narrative did not support the scores given. For 3 of the
              evaluation factors, the narrative used words such as
              “unacceptable,” “not timely supplied,” and “unsatisfactory”
              with numerical scores of 75-85, placing the rating in the
              good range. We believe that the narrative did not support
              ratings in the good range.
              The GTM who prepared the narrative stated the original
              scores were lower than the 75-85 ultimately used, but the
              CO asked the GTM if the original lower scores were the
              scores the GTM really wanted to give. The GTM explained
              that he or she reconsidered what was originally given and
              decided the lower scores were related to a specific incident
              and not the contractor’s overall performance. Thus, the
              GTM changed the scores to the 75-85 ultimately used.6
              Since the narrative states that the contractor’s performance
              was unsatisfactory for three of the evaluation factors and the
              scores were changed after the GTM was asked to
              reconsider, we recalculated the award fees using an
              “Unsatisfactory” score of 0 for these 3 evaluation factors.


              6
                From the documentation reviewed, we could not determine the original
              lower scores.
                                                                            Page 6
Voucher Audit of the Integration Support Contract
               TIRNO-92-C-00014

              Our recalculation resulted in approximately $202,000 in
              award fees that may have been inappropriately paid to the
              contractor.
              Contract award fee modifications not supported by
              corresponding documentation
              We also identified five award fee periods in which the
              award fee amount calculated in the award fee
              documentation did not match the award fee amount
              established in the corresponding contract modifications.
              The award fees for the 5 award fee periods totaled
              approximately $7.4 million in the contract modifications,
              while the documentation only supported approximately
              $5.3 million. We did not identify any explanation in the
              contract modifications for the additional $2.1 million in
              award fees. When questioned, the Office of Procurement
              explained that the award fee amounts of $7.4 million in the
              contract modifications were correct, and they would
              document and reconcile the $2.1 million in discrepancies in
              the award fee documentation.
              Standard score for administrative tasks not supported
              Finally, we identified that for the administrative tasks, a
              score of 95 was always given. The COTR explained that
              95 was the standard score for these tasks and had been
              established prior to his or her becoming the COTR. We did
              not identify any documentation, nor could any be provided,
              establishing this score as a standard. The Office of
              Procurement explained that these were administrative tasks
              and the Integration Support Contract Program Management
              Office assigned the score. A score of 95 increases the
              overall rating, which increases the amount of award fees.
              Due to the complexity of the award fee calculation, we
              could not, with reasonable precision, associate a dollar
              amount with this condition. However, we believe an
              “Excellent” rating (scores of 90 – 100) should be
              documented to support the amount of award fees paid.
              Because of these process and documentation issues, we
              could not confirm the reasonableness of award fees totaling
              approximately $2.4 million paid to the contractor. These
              award fees consisted of approximately $77,000 where we
              believe incorrect scores were used to calculate the award

                                                                   Page 7
                       Voucher Audit of the Integration Support Contract
                                      TIRNO-92-C-00014

                                     fees, approximately $202,000 where the narrative did not
                                     support the numerical award fee scores given, and
                                     approximately $2.1 million where a discrepancy existed
                                     between the award fees paid and the documentation to
                                     support those award fees.

                                     Recommendation

                                     2. The Director, Procurement, should initiate an
                                        independent review of all award fee amounts associated
                                        with this contract to ensure they are accurate, supported,
                                        and reasonable, and initiate any recovery actions
                                        deemed warranted.
                                     Management’s Response: The Director, Procurement, will
                                     initiate an independent review of all award fee amounts
                                     associated with this contract and ensure they are
                                     appropriately documented. Should any discrepancies be
                                     found, appropriate action will be taken to correct them.
                                     While IRS management agreed with our recommendation
                                     and is taking what we believe to be the appropriate
                                     corrective action, IRS management commented in their
                                     response that they did not concur, in total, with the
                                     identified benefits related to the questionable or
                                     inadequately supported award fees. IRS management
                                     further stated that they believe all award fees were
                                     appropriately awarded.
                                     Office of Audit Comment: Until the independent review is
                                     completed, we believe the ultimate allowability and
                                     appropriateness of the award fee amounts will not be
                                     known. Therefore, we will continue to maintain our
                                     position that the benefits of $2.4 million identified during
                                     the audit represent questionable costs.
                                     We examined contract correspondence files and interviewed
Nondelivery of the Custodial
                                     the CO, COTR, and GTMs to determine whether there was
Accounting Project
                                     an acceptable existence of deliverables for the services
                                     related to our sampled vouchers. This contract provided
                                     support services for the IRS’ modernization efforts.
                                     Based on our limited auditing procedures, nothing came to
                                     our attention that would lead us to believe there were
                                     significant problems with any of the deliverables associated
                                                                                           Page 8
Voucher Audit of the Integration Support Contract
               TIRNO-92-C-00014

              with the vouchers included in our tests except for the
              Custodial Accounting Project (CAP).7 The CAP was
              cancelled in January 2005 and, therefore, it was not
              delivered. The IRS stated, in response to Congressional
              Subcommittee Questions for the Record,8 that
              approximately $135 million was expended on the CAP.
              The IRS, however, reported in its April 27, 2005, systems
              project approval request to the Office of Management and
              Budget that the CAP alternative will reduce costs by
              leveraging the CAP lessons learned and reallocating CAP
              assets. The TIGTA, in an independent review,9 concluded
              that while there may be some residual benefit from the CAP
              work, a significant portion of the $135 million spent on this
              cancelled project will result in unrecoverable costs.
              Based on an interview with the CAP GTM, the contractor
              underestimated the complexity of the CAP which led to
              delays on the project. However, the IRS acknowledged and
              accepted these delays.
              The TIGTA in a previous audit of the CAP reported in
              December 200410 that:
                   •   The IRS and the CAP contractor did not track
                       system requirements.
                   •   Testing practices did not allow the testers to
                       determine whether system requirements were
                       successfully tested.




              7
                The CAP, as part of the IRS’ business systems modernization, was to
              implement a single, integrated data repository of taxpayer account
              information, integrated with the general ledger and accessible for
              management analysis and reporting.
              8
                Questions for the Record, Internal Revenue Service, The Honorable
              Joseph K Knollenberg, Chairman, Subcommittee on Transportation,
              Treasury, Housing and Urban Development, the Judiciary, District of
              Columbia, and Independent Agencies; Dated April 19, 2005.
              9
                Annual Assessment of the Business Systems Modernization Program
              (Reference Number 2005-20-102, dated August 2005).
              10
                 System Requirements Were Not Adequately Managed During the
              Testing of the Custodial Accounting Project (Reference Number
              2005-20-019, dated December 2004).
                                                                             Page 9
Voucher Audit of the Integration Support Contract
               TIRNO-92-C-00014

                  •   The IRS approved changes to the baseline system
                      requirements without always knowing which system
                      requirements were affected.
                  •   The IRS accepted initial systems testing without
                      knowing or reviewing how many requirements were
                      successfully verified.
              Since the TIGTA previously reported on the CAP and the
              CAP has been cancelled, we have no further
              recommendations.




                                                               Page 10
                         Voucher Audit of the Integration Support Contract
                                       TIRNO-92-C-00014

                                                                                                     Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether selected vouchers submitted and
paid under contract number TIRNO-92-C-00014 were appropriate and in accordance with the
contract’s terms and conditions. Specifically, we:
    I.       Analyzed the Internal Revenue Service’s (IRS) voucher verification process prior to
             certifying payment to the contractor.
             A. Interviewed the Contracting Officer and Contracting Officer’s Technical
                Representative to confirm our understanding of the voucher verification process.
             B. Documented voucher processing risks including accuracy, supportability, and
                allowability of voucher charges and concluded as to the overall control
                environment.
             C. Interviewed IRS personnel involved in the administration of the contract to
                identify any concerns that existed regarding the contractor, its billing practices, or
                any specific invoices.
    II.      Verified whether voucher charges submitted by the contractor and paid by the IRS
             were accurate, supported, and allowable.
             A. Used a sample selection method that involved two stages and various assumptions
                concerning the universe of the Request Tracking System1 recorded transactions.
                First, we eliminated all transactions prior to Fiscal Year 2002 from a total
                universe of 378 transactions2 to establish our initial sampling universe of
                87 transactions as of October 4, 2004. We eliminated the transactions processed
                prior to Fiscal Year 2002 to ensure supporting documentation would be readily
                available. The elimination also afforded us the opportunity to identify current
                cost-reimbursable internal control problems and the ability to discuss adverse
                conditions with IRS employees and managers who would be knowledgeable of
                the current voucher verification process.



1
  The Request Tracking System allows IRS personnel to prepare, approve, fund, and track requests for the delivery
of goods and services. The System also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System (the IRS’ administrative financial accounting system) for
payment processing.
2
  The Request Tracking System only provides information as of Fiscal Year 1998 when the system was
implemented.


                                                                                                            Page 11
                       Voucher Audit of the Integration Support Contract
                                     TIRNO-92-C-00014

                 From this universe, we used the Automated Financial System3 to associate the
                 transactions to their respective contractor vouchers. This produced a universe of
                 31 vouchers. Because the vouchers were very voluminous, we decided to select a
                 sample of one-third, or 10, of the vouchers. We judgmentally selected five
                 vouchers. One was selected during our planning phase and we noted there were
                 labor charges in prior months so we selected three vouchers from the prior months
                 to verify that no duplicate labor charges were claimed. The fifth voucher was
                 selected because of its high dollar value. Using the Data Analysis tool in Excel,
                 we randomly selected five vouchers as there was nothing unique about the
                 remaining vouchers. The 10 vouchers had processing dates from August 2002 to
                 August 2004 and involved approximately $40 million in IRS payments. We
                 believed this sampling method would provide sufficient evidence to accomplish
                 our audit objective and would result in acceptable management corrective action
                 without the need for a precise projection of sample results.
            B. Obtained supporting documentation for the vouchers in the sample from the IRS
               and contractor and performed the following tests:
                 1. Verified the mathematical accuracy of the vouchers and supporting
                    documentation.
                 2. Traced voucher charges to supporting documentation.
                 3. Verified whether voucher charges were actually paid by the contractor though
                    examination of payroll records and extracts from the contractor’s financial
                    records.
                 4. Verified whether voucher charges were allowable under the terms and
                    conditions of the contract.
    III.    Verified whether there was acceptable existence of deliverables, as stipulated in the
            contract, for the vouchers included in our sample through interviews and reviews of
            project files.




3
 The Automated Financial System was a computer-based financial accounting system used by the IRS to track
appropriations and expenditures. It was replaced by the Integrated Financial System.



                                                                                                      Page 12
                    Voucher Audit of the Integration Support Contract
                                  TIRNO-92-C-00014

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Debra Gregory, Senior Auditor
Terrey Haley, Senior Auditor
James Mills, Senior Auditor




                                                                                      Page 13
                   Voucher Audit of the Integration Support Contract
                                 TIRNO-92-C-00014

                                                                       Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Director, Procurement OS:A:P




                                                                            Page 14
                     Voucher Audit of the Integration Support Contract
                                   TIRNO-92-C-00014

                                                                                    Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Questioned Costs – Actual; $1,756.18 (see page 2).
Methodology Used to Measure the Reported Benefit:
We examined vouchers and supporting documentation obtained from the Internal Revenue
Service’s (IRS) Office of Procurement, as well as documentation received directly from the
contractor, to verify charges for a sample of 10 vouchers. We selected our sample from a total
population of approximately $295 million in transactions processed by the IRS for the contract.
The 10 vouchers had processing dates from August 2002 to August 2004 and involved
approximately $40 million in IRS payments.
Our review resulted in the identification of questionable charges of $1,756.18. Specifically,
these charges consisted of $1,251.83 in unsupported travel charges, $452.93 in unreasonable
travel charges, and $51.42 in inaccurate travel charges.
Type and Value of Outcome Measure:
•   Questioned Costs – Potential; $76,938.79 (see page 5)
Methodology Used to Measure the Reported Benefit:
We interviewed the Contracting Officer, Contracting Officer’s Technical Representative,
Government Task Managers, and Fee Determining Official to identify how the award fees paid
to the contractor was calculated. We also reviewed the documentation that supported the award
fees paid.
Our review resulted in the identification of an instance where an average of the award fee scores
was used instead of the individual actual award fee scores as prescribed in the contract award fee
plan. Two of the four scores awarded would have resulted in no award fees if not first averaged
with the other two scores. Our recalculation of the overall award fee score using the individual
actual scores resulted in what we believe to be an overpayment of award fee of $76,938.79.




                                                                                           Page 15
                     Voucher Audit of the Integration Support Contract
                                   TIRNO-92-C-00014

Type and Value of Outcome Measure:
•   Questioned Costs – Potential; $201,778.83 (see page 5).
Methodology Used to Measure the Reported Benefit:
We interviewed the Contracting Officer, Contracting Officer’s Technical Representative,
Government Task Managers, and Fee Determining Official to identify how the award fees paid
to the contractor was calculated. We also reviewed the documentation that supported the award
fees paid.
Our review resulted in the identification of an instance where the award fee narrative did not
support the scores given. For three of the evaluation factors, the narrative used words such as
“unacceptable,” “not timely supplied,” and “unsatisfactory” with numerical scores of 75-85,
placing the rating in the good range. We were informed that the original scores had been lower
but were changed after the Government Task Manager was asked to reconsider. Our
recalculation of the overall award fee score using an “Unsatisfactory” numerical score of 0
resulted in $201,778.83 in award fees that may have been inappropriately paid to the contractor.
Type and Value of Outcome Measure:
•   Questioned Costs – Potential; $2,115,887.82 (see page 5).
Methodology Used to Measure the Reported Benefit:
We reviewed the documentation associated with the award fees and the related modifications.
Our review resulted in the identification of five award fee periods where the award fee amount
calculated in the award fee documentation did not match the award fee amount established in the
corresponding contract modifications. The award fees for the 5 award fee periods totaled
$7,428,065.82 in the contract modifications, while the documentation only supported
$5,312,178.00. We did not identify any explanation in the contract modifications for the
additional $2,115,887.82 in award fees.




                                                                                         Page 16
Voucher Audit of the Integration Support Contract
              TIRNO-92-C-00014

                                                    Appendix V


 Management’s Response to the Draft Report




                                                        Page 17
Voucher Audit of the Integration Support Contract
              TIRNO-92-C-00014




                                                    Page 18
Voucher Audit of the Integration Support Contract
              TIRNO-92-C-00014




                                                    Page 19
